April 7, 2021
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Esposito v. Ford, No. 20-7185

Dear Mr. Harris:
Pursuant to this Court’s March 19, 2020 Order relating to the ongoing public health
concerns of COVID-19, Petitioner John Esposito respectfully asks this Court to delay distribution
of his petition for writ of certiorari in Esposito v. Ford, No. 20-7185, by 30 days.
Mr. Esposito, proceeding in forma pauperis, filed his Petition for Certiorari on February
12, 2021. Counsel for Respondent filed a Brief in Opposition on March 29, 2021. The petition is
thus currently scheduled for distribution no earlier than April 15, 2021. With a 30-day delay,
distribution would occur no earlier than May 15, 2021. The conference date would then be June 3,
2021. Mr. Esposito requests this additional time to file a reply in support of his petition for writ of
certiorari due to ongoing logistical difficulties caused by the COVID-19 pandemic.
Counsel for Respondent does not oppose this request.

Sincerely,

Marcia A. Widder
Counsel of Record for John Esposito

